HHS/OIG, Audit - "Compliance with New York State Medicaid Inpatient
Prospective Payment System Transfer Regulations," (A-02-02-01004)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Compliance with New York State Medicaid Inpatient Prospective Payment System
Transfer Regulations," (A-02-02-01004)
May 8, 2003
Complete
Text of Report is available in PDF format (873 kb). Copies can also be obtained by
contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objectives of our audit were to determine whether (1)
Prospective Payment System (PPS) hospitals were paid in accordance with New York
State (NYS) Medicaid policy when beneficiaries were transferred to other PPS
hospitals, and (2) Medicaid overpayments resulted from the incorrect coding of
the patient (discharge) status on claims for the transferred beneficiaries. For
the most part, PPS hospitals in NYS were paid in accordance with Medicaid policy
when beneficiaries were transferred to other PPS hospitals.  However, we
noted a relatively small number of exceptions that resulted from the incorrect
coding of the patient (discharge) status on claims for the transferred
beneficiaries.  The NYS Department of Health (DOH) overpaid a total of $986,316 ($493,158
Federal share) for 74 of the 185 claims reviewed.
We recommended that NYS DOH (1) refund $493,158 to the
Federal Government for its share of the identified overpayments, (2) research
the economic feasibility of analyzing the remaining claims in our universe to
determine if they resulted in overpayments to PPS hospitals, and (3) instruct
hospitals to review all internal procedures and processes related to claims
submission to assure that PPS transfers are properly reported.